CERTIFICATE OF SERVICE
No. 20-151
JOE BLESSETT
Petitioner
v.
BEVERLY A GARCIA
Respondent

As required by Supreme Court Rule 29(5)(c) certificate of service, I
certify that the petition for a writ of certiorari was served to the following
Corporate Entities:

1. Mr. Barry McBee
First Assistant Attorney General
for the State of Texas
P.O. Box 12548
Austin, TX 78711
USPS Tracking # 9410 5118 9956 3600 9018 48
2. Department of Health and Human
Services (HHS).
Office of Inspector General
l

P.O. Box 23489
Washington, DC 2002
USPS Tracking # 9405 5118 9956 1964 43
3. City of Galveston
Galveston County Legal Department
722 Moody, 5th Floor
Galveston, TX 77550
USPS Tracking # 9405 5118 9956 3006 1508 03
4. La Marque Child Support & Social Service Office
5300 FM 2004
La Marque, TX 77568-2402
USPS Tracking # 9405 5118 9956 3606 4345 90
5. Ms. Charlene Goodwin
Legal Administrative
Officer Office of the Solicitor General,
Rm. 5614 United States Department of Justice
950 Pennsylvania Ave.,
NW Washington, DC 20530-0001
USPS Tracking # 9405 5118 9956 3606 4600 49

2

6. Steven A Sinkin
Sinkin and Barretto PLLC.
105 W Woodlawn Ave
San Antonio, TX 78212
USPS Tracking # 9405 5118 9956 3606 4028 03

I declare under penalty of perjury under the laws of the United States of
America 28 USC. 1746(1) that the foregoing is true and correct.
Date

, 2020

/
/

Jt^eyBlo&sett Pro Se
31T8FM 528 #346
Webster, TX 77598
Ph. 281-667-1174

3

